                         U.S. Department of Agriculture

                            Office of Inspector General
                             Financial & IT Operations




               Audit Report

Statement on Auditing Standards No. 70 Report
on the National Information Technology Center
  General Controls Review – Fiscal Year 2009




                               Report No. 88501-13-FM
                                      September 2009
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




September 4, 2009

REPLY TO
ATTN OF:      88501-13-FM

TO:           Christopher L. Smith
              Chief Information Officer
              Office of the Chief Information Officer

THROUGH: Sherry Linkins
         Office of the Chief Information Officer
         Information Resources Management

FROM:         Robert W. Young             /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Statement on Auditing Standards No. 70 Report on the National Information
              Technology Center General Controls Review - Fiscal Year 2009


This report presents the results of our Statement on Auditing Standards (SAS) No. 70 audit at the
Office of the Chief Information Officer/National Information Technology Center (OCIO/NITC)
as of June 30, 2009. The audit was conducted in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and the American Institute of
Certified Public Accountants Standards that are commonly referred to as a SAS No. 70 audit.
This report contains an unqualified opinion on the general control environment and does not
contain recommendations. The projection of any conclusions based on our audit findings to
future periods are subject to the risk that changes may alter the validity of such conclusions.
This report is intended solely for the management of OCIO/NITC, its customer agencies, and
their auditors.

We appreciate the courtesies and cooperation extended to us during this review.
Executive Summary
Statement on Auditing Standards No. 70 Report on the National Information
Technology Center General Controls Review - Fiscal Year 2009 (Audit Report No.
88501-13-FM)

Results in Brief   This report presents the results of our Statement on Auditing Standards
                   No. 70 audit of the Office of the Chief Information Officer/National
                   Information Technology Center’s (OCIO/NITC) internal controls as of
                   June 30, 2009.       Our review was conducted in accordance with
                   Government Auditing Standards issued by the Comptroller General of the
                   United States including American Institute of Certified Public
                   Accountants Professional Standards as amended by applicable statements
                   on auditing standards.
                   Our objectives were to perform procedures necessary to express opinions
                   about whether (1) OCIO/NITC’s description of controls in exhibit A
                   presents fairly, in all material respects, the aspects of OCIO/NITC’s
                   controls that may be relevant to a customer agency’s internal control as it
                   relates to an audit of financial statements; (2) the controls included and/or
                   referenced were placed in operation and suitably designed to achieve the
                   control objectives specified in the description, if those controls were
                   complied with satisfactorily and customer agencies applied the controls
                   contemplated in the design of OCIO/NITC’s controls; and (3) the controls
                   we tested were operating with sufficient effectiveness to provide
                   reasonable, but not absolute, assurance that the control objectives
                   specified were achieved during the period from July 1, 2008, through
                   June 30, 2009.
                   Our audit disclosed that the control objectives and techniques identified in
                   exhibit A presented fairly, in all material respects, the relevant aspects of
                   OCIO/NITC’s controls. Also, in our opinion, the controls included in the
                   description were suitably designed and operating with sufficient
                   effectiveness to provide reasonable assurance that associated control
                   objectives would be achieved if the described policies and procedures
                   were complied with satisfactorily and customer agencies applied the
                   controls specified in the OCIO/NITC description of controls.
Recommendation
In Brief           We do not make any recommendations in this report.




USDA/OIG-A/88501-13-FM                                                                   Page i
Abbreviations Used in This Report



AD             Administrative Directive
C&A            certification and accreditation
CMITS          Configuration Management Information Tracking System
CS             Cyber Security
DAA            designated approving authority
ESM            External Security Mechanism
FISMA          Federal Information Security Management Act of 2002
GSS            General Support System
ID             identification
IS             information system
IT             information technology
LID            logon identifiers
NIST           National Institute of Standards and Technology
OCIO           Office of the Chief Information Officer
NITC           National Information Technology Center
OIG            Office of Inspector General
PIA            Privacy Impact Assessments
POA&M          plan of action & milestones
RA             risk assessments
SAS            Statement on Auditing Standards
SD             Security Directive
SSP            System Security Plan
ST&E           Security Test and Evaluation
USDA           U.S. Department of Agriculture




USDA/OIG-A/88501-13-FM                                                Page ii
Table of Contents

Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................. ii

Report of the Office of Inspector General .................................................................................. 1

Exhibit A – Office of the Chief Information Officer/National Information Technology
            Center - Description of Controls ............................................................................ 3

Exhibit B – Office of Inspector General, Review of Selected Controls .................................. 47




USDA/OIG-A/88501-13-FM                                                                                                          Page iii
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




Report of the Office of Inspector General
To:    Christopher L. Smith
       Chief Information Officer
       Office of the Chief Information Officer

We have examined the controls identified or referenced in exhibit A for the U.S. Department of
Agriculture’s (USDA) Office of the Chief Information Officer/National Information Technology
Center (OCIO/NITC). Our examination included procedures to obtain reasonable assurance
about whether (1) the accompanying description of controls of the USDA’s OCIO/NITC presents
fairly, in all material respects, the aspects of OCIO/NITC’s controls that may be relevant to a
customer agency’s internal control as it relates to an audit of financial statements; (2) the
controls included in the description were suitably designed to achieve the control objectives
specified in the description, if those controls were complied with satisfactorily and customer
agencies applied the controls contemplated in the design of OCIO/NITC’s controls; and (3) such
controls had been placed in operation as of June 30, 2009. The control objectives were specified
by OCIO/NITC.

Our audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States and the standards issued by the American Institute of
Certified Public Accountants. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

In our opinion, OCIO/NITC’s description of controls in exhibit A of this report presents fairly, in
all material respects, the relevant aspects of OCIO/NITC’s controls that had been placed in
operation as of June 30, 2009. Also, in our opinion, the controls included or referenced in
exhibit A were suitably designed to provide reasonable assurance that the specified control
objectives would be achieved if the described controls were complied with satisfactorily and
customer agencies applied the controls contemplated in the design of OCIO/NITC’s controls.

In addition to the procedures we considered necessary to render our opinion as expressed in the
previous paragraph, we performed tests to obtain evidence regarding the effectiveness of specific
controls in meeting the control objectives included in exhibit A during the period from
July 1, 2008, through June 30, 2009. The specific controls and the nature, timing, extent, and
results of our tests are identified in exhibit B. This information will be provided to customer
agencies and their auditors to be taken into consideration, along with information about the
internal control at customer agencies, when making assessments of control risk for customer
agencies. In our opinion, the controls that were tested were operating with sufficient
USDA/OIG-A/88501-13-FM                                                                      Page 1
effectiveness to provide reasonable, but not absolute, assurance that the control objectives
specified in exhibit A were achieved during the period from July 1, 2008, through June 30, 2009.

The relative effectiveness and significance of specific controls at OCIO/NITC and their effect on
assessments of control risk at user organizations are dependent on their interaction with the
controls and other factors present at individual customer organizations. We have performed no
procedures to evaluate the effectiveness of controls at individual customer agencies as part of
this audit.

The description of controls at OCIO/NITC is as of June 30, 2009, and information about tests of
the operating effectiveness of specific controls covers the period from July 1, 2008, through
June 30, 2009. Any projection of such information to the future is subject to the risk that,
because of change, the description may no longer portray the controls in existence. The potential
effectiveness of specific controls at OCIO/NITC is subject to inherent limitations and,
accordingly, errors or fraud may occur and not be detected. Furthermore, the projection of any
conclusions, based on our findings, to future periods is subject to the risk that (1) changes made
to the system or controls, (2) changes in processing requirements, or (3) changes required
because of the passage of time may alter the validity of such conclusions. Finally, the accuracy
and reliability of data processed by OCIO/NITC and the resultant report ultimately rests with the
customer agency and any compensating controls implemented by such agency.

This report is intended solely for the management of OCIO/NITC, its users, and their auditors.

/s/

Robert W. Young
Assistant Inspector General
 for Audit

August 28, 2009




USDA/OIG-A/88501-13-FM                                                                     Page 2
The subsequent sections of the report exhibit A (pages 3
through 46) and exhibit B (pages 47 through 65), are not
being publicly released due to the sensitive security
content.
